Classic VISA Credit
Card Agreement and
Federal Truth-In-Lending
Disclosure Statement
EFFECTIVE FEBRUARY 1, 2021
IMPORTANT DOCUMENT
PLEASE KEEP FOR YOUR RECORDS

LOST OR STOLEN CARDS
(866) 604-0381
(727) 570-4881

16150 SHERMAN WAY, VAN NUYS, CA 91406
PHONE (877) 695-2732 FAX (818) 787-3273
www.lapfcu.org

In this Classic VISA Credit Card Agreement and Federal Truth-inLending Disclosure Statement (“Agreement”) the words “I”, “me”,
“my” and “mine” mean each and all of those who apply for, or who
sign for or use the Card and/or Account. The words “Credit Union”,
“LAPFCU”, “you”, “your”, and “yours” mean Los Angeles Police
Federal Credit Union. “Card” means the Classic VISA Credit Card(s)
issued to me and any duplicates and/or renewals you may issue.
“Account” means my Classic VISA Credit Card Account with you.
By requesting and receiving, signing, using or permitting others to use
the Card and/or Account issued to me by you, I agree to be bound by
the terms and conditions as set forth herein and any amendments
and/or change in terms thereto.
ARBITRATION AND WAIVER OF CLASS ACTION: The Credit
Union and I agree that you and I shall attempt to informally settle
any and all disputes arising out of, affecting, or relating to my Card,
my Account, or the products or services you have provided, will
provide or have offered to provide to me, and/or any aspect of my
Account relationship with you (hereafter referred to as the “Claims”).
If that cannot be done, then you and I agree that any and all Claims
that are threatened, made, filed or initiated after the Effective Date
(defined below) of this Arbitration and Waiver of Class Action provision
(“Arbitration Agreement”), even if the Claims arise out of, affect or
relate to conduct that occurred prior to the Effective Date, shall,
at the election of either you or I, be resolved by binding arbitration
administered by the American Arbitration Association (“AAA”) in
accordance with its applicable rules and procedures for consumer
disputes (“Rules”), whether such Claims are in contract, tort, statute,
or otherwise. The Rules can be obtained on the AAA website free of
charge at www.adr.org; or, a copy of the Rules can be obtained at any
Credit Union branch upon request. Either you or I may elect to resolve
a particular Claim through arbitration, even if you or I have already
initiated litigation in court related to the Claim, by: (a) making written
demand for arbitration upon the other party, (b) initiating arbitration
against the other party, or (c) filing a motion to compel arbitration in
court. AS A RESULT, IF EITHER YOU OR I ELECT TO RESOLVE A
PARTICULAR CLAIM THROUGH ARBITRATION, I WILL GIVE UP MY
RIGHT TO GO TO COURT TO ASSERT OR DEFEND MY RIGHTS
UNDER THIS AGREEMENT (EXCEPT FOR CLAIMS BROUGHT
INDIVIDUALLY WITHIN SMALL CLAIMS COURT JURISDICTION, SO
LONG AS THE CLAIM REMAINS IN SMALL CLAIMS COURT). This
Arbitration Agreement shall be interpreted and enforced in accordance
with the Federal Arbitration Act set forth in Title 9 of the U.S. Code
to the fullest extent possible, notwithstanding any state law to the
contrary, regardless of the origin or nature of the Claims at issue.
This Arbitration Agreement does not prevent me from submitting any
issue relating to my accounts for review or consideration by a federal,
state, or local governmental agency or entity, nor does it prevent such
agency or entity from seeking relief on my behalf.
A. Selection of Arbitrator. The Claims shall be resolved by a single
arbitrator. The arbitrator shall be selected in accordance with
the Rules, and must have experience in the types of financial
transactions at issue in the Claims. In the event of a conflict
between the Rules and this Arbitration Agreement, this Arbitration
Agreement shall supersede the conflicting Rules only to the extent
of the inconsistency. If AAA is unavailable to resolve the Claims,
and if you and I do not agree on a substitute forum, then I can
select the forum for the resolution of the Claims.
B. Effective Date. This Arbitration Agreement is effective upon the
61st day after you provide it to me (“Effective Date”), unless I optout in accordance with the requirements of the RIGHT TO OPTOUT provision below.
C. Claims Arising Prior to Effective Date. THIS BINDING
ARBITRATION AGREEMENT APPLIES TO ALL CLAIMS THAT
ARE FILED OR INITIATED AFTER THE EFFECTIVE DATE, EVEN
IF THE CLAIM ARISES OUT OF, AFFECTS, OR RELATES TO
CONDUCT THAT OCCURRED PRIOR TO THE EFFECTIVE

1

DATE. If a Claim is filed or initiated prior to the Effective Date, this
Arbitration Agreement will not apply to such Claim.
D. Arbitration Proceedings. The arbitration shall be conducted
within 50 miles of my residence at the time the arbitration is
commenced. Any claims and defenses that can be asserted in
court can be asserted through arbitration. The arbitrator shall
be entitled to award the same remedies that a court can award,
including public injunctive relief to the extent available under the
California Unfair Competition Law and Consumer Legal Remedies
Act. Discovery shall be available for non-privileged information to
the fullest extent permitted under the Rules. The arbitrator’s award
can be entered as a judgment in court. Except as provided in
applicable statutes, the arbitrator’s award is not subject to review
by the court and it cannot be appealed. The Credit Union shall pay
for any filing, administration, and arbitrator fees imposed on me by
the AAA. However, I will be responsible for my own attorneys’ fees,
unless I prevail on my Claim in the arbitration, in which case, you
will pay my attorneys’ fees. However, if the Credit Union prevails,
then I will not be required to pay the Credit Union’s attorneys’ fees
and cost.
Any determination as to whether this Arbitration Agreement is
valid or enforceable in part or in its entirety will be made solely
by the arbitrator, including without limitation any issues relating to
whether a Claim is subject to arbitration; provided, however, the
enforceability of the Class Action Waiver set forth below shall be
determined by the Court.
E. Class Action Waiver. ANY ARBITRATION OF A CLAIM WILL
BE ON AN INDIVIDUAL BASIS. I UNDERSTAND AND AGREE
THAT I AM WAIVING THE RIGHT TO PARTICIPATE AS A CLASS
REPRESENTATIVE OR CLASS MEMBER IN A CLASS ACTION
LAWSUIT.
F. Severability. In the event the Class Action Waiver in this
Arbitration Agreement is found to be unenforceable for any
reason, the remainder of this Arbitration Agreement shall also be
unenforceable. If any provision in this Arbitration Agreement, other
than the Class Action Waiver, is found to be unenforceable, the
remaining provisions shall remain fully enforceable.
G. Survival. This Arbitration Agreement will survive termination of the
Account and/or this Agreement.
H. Right to Opt-Out. I have the right to opt-out of this Arbitration
Agreement, provided I notify you of my intent to do so within 60
days after it is provided to me. My opt-out is only effective if I notify
you in writing at Los Angeles Police Federal Credit Union, P.O. Box
10188, Van Nuys, California 91410-0188 within such 60-day time
period. If I fail to opt-out within this 60-day time, I will be deemed
to have consented to the resolution of my Claims through binding
arbitration. In the event I opt-out, it shall not affect other terms
and conditions of my Agreement or my relationship with the Credit
Union.
I. Inapplicability to Covered Borrowers. This Arbitration Agreement
will not apply to the extent prohibited under the federal Military
Lending Act, such as if I am a “covered borrower” under the
Military Lending Act.
J. FOR MORE DETAILS or if I have questions, I may call the Credit
Union or visit a branch. If I have questions about AAA procedures,
I should check AAA’s website, www.adr.org, OR call AAA at (800)
778-7879.
MILITARY LENDING ACT (MLA) DISCLOSURE: Federal law
provides important protections to members of the Armed
Forces and their dependents relating to extensions of consumer
credit. In general, the cost of consumer credit to a member of
the Armed Forces and his or her dependent may not exceed an
annual percentage rate of 36 percent. This rate must include,
as applicable to the credit transaction or account: The cost
associated with credit insurance premiums; fees for ancillary

2

products sold in connection with the credit transaction; any
application fee charged (other than certain application fees for
specified credit transactions or accounts); and any participation
fee charged (other than certain participation fees for a credit card
account). To hear this Military Lending Act disclosure and the
payment obligations thereunder, I can call toll free at (877) MYLAPFCU (877-695-2732), option 9.
AUTHORIZATION AND PAYMENT: I authorize you to pay and charge
my Account for all Purchases, Cash Advances and Balance Transfers
made or obtained by me or anyone I authorize to use my Card or
Account. I will be obligated to pay all such Purchases, Cash Advances
and Balance Transfers charged to my Account whether resulting from:
(1) actual use of my Card or Convenience Checks; (2) mail order or
telephone, computer, or other electronic Purchases made without
presenting the Card; or (3) any other circumstance where I authorize a
charge, or authorize someone else to make a charge, to my Account
(collectively, “authorized charges”). I promise to pay you or to your
order in U.S. Dollars with an instrument drawn on a financial institution
in the United States at your office or at the address set forth on my
periodic statement all authorized charges on the terms and at the
rates set forth herein, plus any FINANCE CHARGES assessed on my
Account, and any other charges and fees which I may owe you under
the terms of this Agreement (the “Account Balance”). Payments will
continue until I have paid in full the Account Balance. To protect me
and you, you may, in your sole discretion, place a temporary hold on
the credit available to me any time you receive a payment of $1,000 or
more from me via a payment method other than cash, certified funds
or electronic transfer. In such cases, the hold on my available credit
will remain in place until payment is actually collected by you.
CHANGE OF TERMS: Account and agreement terms are not
guaranteed for any period of time. I understand and agree that you
may amend, modify, add to, or delete from this Agreement any
of its terms and conditions, including financial terms such as the
method of application and the amount of any FINANCE CHARGE,
ANNUAL PERCENTAGE RATE, Monthly Periodic Rate and/or fee in
accordance with applicable laws. If required by applicable law, you
will mail a notice of the change to me at my last known address. I also
understand that in the event of a significant change, as defined under
the federal Truth in Lending Act, any such notice will be mailed at least
forty-five (45) days prior to the effective date of the significant change
as required by applicable law. If you are required by applicable law
to provide me a right to reject significant changes to this Agreement
prior to the effective date of such changes, you will provide me with
an explanation of how to reject the significant changes, unless I fail
to make a required minimum payment within sixty (60) days after its
due date. You may change the terms of this Agreement based on
information in my credit report, market conditions, business strategy
or for any other reason. Notice of a change in terms is required, but
may be sent as late as the effective date of the change where the
change has been agreed to in writing, by me.
INTEREST RATES AND INTEREST CHARGES: I understand that a
portion of my FINANCE CHARGES incurred during a billing cycle will
include my INTEREST CHARGES incurred during that billing cycle.
The INTEREST CHARGE for a billing cycle will be calculated by
applying my Monthly Periodic Rate to my Average Daily Balance. I
understand and agree that under the “Change of Terms” section
above, you have the right in your sole and absolute discretion to
change the amount of any ANNUAL PERCENTAGE RATE, Monthly
Periodic Rate and/or INTEREST CHARGE that may apply to my
Account.
Monthly Periodic INTEREST CHARGE, Monthly Periodic Rate, and
ANNUAL PERCENTAGE RATE: The initial Monthly Periodic Rate
used in calculating the Monthly Periodic INTEREST CHARGE is a
discounted Monthly Periodic Rate with an initial discounted ANNUAL
PERCENTAGE RATE, as disclosed on the enclosed “Addendum
to Classic VISA Credit Card Agreement & Federal Truth-in-Lending

3

Disclosure Statement” (“Addendum”). The initial discounted Monthly
Periodic Rate will remain in effect during my first six (6) monthly billing
cycles unless I fail to make a payment when due or I make a payment
that is returned (for further information, please refer to the PENALTY
ANNUAL PERCENTAGE RATE section below). Thereafter, the
Monthly Periodic Rate used in calculating the Monthly Periodic
INTEREST CHARGE and the corresponding ANNUAL PERCENTAGE
RATE are disclosed on the enclosed Addendum. The Monthly Periodic
INTEREST CHARGE is imposed as follows:
Cash Advances: Periodic INTEREST CHARGES will be imposed on
Cash Advances that I obtain through the use of my Card as of the date
of each such Cash Advance and will continue to accrue until the Cash
Advance is repaid.
Credit Purchases of Goods and Services: If a Grace Period applies,
periodic INTEREST CHARGES will be imposed on credit purchases
only if they are not paid in full within twenty-five (25) days after the
Statement Closing Date (“Grace Period”) each and every billing cycle.
To the extent that a credit purchase is not subject to a Grace Period, a
periodic INTEREST CHARGE will be calculated on credit purchases
that I obtain with my Card as of the date such credit purchase is
posted to my Account and will continue to accrue until the date of
repayment.
Balance Transfers: Periodic INTEREST CHARGES will be imposed on
balance transfers only if they are not paid in full within twenty-five (25)
days after the Statement Closing Date (“Grace Period”). To the extent
that a balance transfer is not subject to a Grace Period, a periodic
INTEREST CHARGE will be calculated on balance transfers that I
obtain with my Card as of the date such balance transfer is posted to
my Account and will continue to accrue until the date of repayment.
MINIMUM INTEREST CHARGE: A minimum INTEREST CHARGE
of $0.50 will be assessed whenever a Monthly Periodic INTEREST
CHARGE is imposed. The Monthly Periodic INTEREST CHARGE
for each billing cycle will be calculated by applying the Average
Daily Balance (described below) for the billing cycle by the Monthly
Periodic Rate. The Monthly Periodic Rate is determined by dividing
the ANNUAL PERCENTAGE RATE by 12.
TRANSACTION FEES: I understand that, in addition to INTEREST
CHARGES incurred during a billing cycle another portion of my
FINANCE CHARGES incurred during a billing cycle may include
TRANSACTION FEES incurred during that billing cycle. My
TRANSACTION FEES for a billing cycle will be the sum of two (2)
components set forth below, each of which is a FINANCE CHARGE.
I understand and agree that under the “Change of Terms” section
above, you have the right in your sole and absolute discretion to
change the amount of any TRANSACTION FEE that may apply to
my Account.
Cash Advance Fee: One (1) component of the TRANSACTION FEE
is the Cash Advance Fee. Cash Advance transactions are subject to
a Cash Advance Fee which shall be the greater of $2.00 or 2% of
the amount of the Advance which is posted to the Account during
the billing cycle, but not to exceed $25.00 per Cash Advance. In
addition, a Cash Advance Fee may not cause the FINANCE CHARGE
to exceed the maximum rate permitted for a federal credit union. Cash
Advances are subject to the Monthly Periodic Rate (see below) during
the billing cycle in which the Cash Advance Fee is imposed.
Foreign Transactions Fee: The second (2nd) component of the
TRANSACTION FEE is the Foreign Transactions Fee. Purchases,
Cash Advances, and credit transactions made in foreign currencies
are subject to a Foreign Transactions Fee of 1.0% of the amount of
the Purchase, Cash Advance, or credit transaction which is posted
to the Account during the billing cycle (which may include on-line
purchases made within the United States but where the merchant is
located internationally). International Purchases, Cash Advances, and
credit transactions that are not made in foreign currencies are subject
to a Foreign Transactions Fee of .8% of the amount of the Purchase,

4

Cash Advance, or credit transaction which is posted to the Account
during the billing cycle. The above TRANSACTION FEES and other
fees for the billing cycle will be shown on my periodic statement.
PENALTY ANNUAL PERCENTAGE RATE: A penalty ANNUAL
PERCENTAGE RATE of 17.90% (corresponding Monthly Periodic
Rate of 1.492%) may be applied to my Account Balance if I fail to
make a payment when due or I make a payment that is returned. You
will provide me notice of such penalty ANNUAL PERCENTAGE RATE
at least forty-five (45) days prior to the effective date of the penalty
ANNUAL PERCENTAGE RATE and such notice will inform me which
future transactions and/or outstanding balances are subject to the
penalty ANNUAL PERCENTAGE RATE.
Generally, the penalty ANNUAL PERCENTAGE RATE will apply to
future transactions that occur more than fourteen (14) days after
you provide me notice of the penalty ANNUAL PERCENTAGE
RATE and my ANNUAL PERCENTAGE RATE will revert to the
applicable “standard” ANNUAL PERCENTAGE RATE provided for in
this Agreement, provided that I make six (6) consecutive Minimum
Monthly Payments when due beginning with the first (1st) payment
due after the effective date of the increase.
However, if I fail to make a Minimum Monthly Payment within sixty (60)
days after its Payment Due Date, the penalty ANNUAL PERCENTAGE
RATE will apply to all outstanding balances and future transactions.
In such event, my ANNUAL PERCENTAGE RATE will cease applying
to transactions that occurred prior to or within fourteen (14) days of
provision of the notice and will revert to the applicable “standard”
ANNUAL PERCENTAGE RATE set forth above, provided that I make
six (6) consecutive Minimum Monthly Payments when due beginning
with the first (1st) payment due after the effective date of the increase.
HOW TO COMPUTE THE CASH ADVANCES BALANCE
(CONSISTING OF TRANSACTIONS RELATED TO CASH AND
OTHER ADVANCE TRANSACTIONS) UPON WHICH PERIODIC
FINANCE CHARGES ARE ASSESSED:
Average Daily Balance (including current Cash Advance transactions):
You figure a portion of the FINANCE CHARGE on my Account by
applying the Cash Advance Monthly Periodic Rate to the Average
Daily Balance of Cash Advances (including current Cash Advances).
To get the Average Daily Balance of Cash Advance transactions you
take the beginning balance of Cash Advance transactions on my
Account each day, add any new Cash Advances, and subtract any
payments or credits, and unpaid INTEREST CHARGES and other
FINANCE CHARGES. This gives you the daily balance of Cash
Advance transactions. Then, you add up all the daily balances of Cash
Advance transactions for the billing cycle and divide the total by the
number of days in the billing cycle. This gives you the Average Daily
Balance of Cash Advance transactions.
HOW TO COMPUTE THE PURCHASE BALANCE (CONSISTING
OF TRANSACTIONS RELATED TO PURCHASES OF GOODS AND
SERVICES) UPON WHICH PERIODIC FINANCE CHARGES ARE
ASSESSED:
Average Daily Balance (including current Purchase transactions):
You figure a portion of the INTEREST CHARGE on my Account by
applying the Purchase Monthly Periodic Rate to the Average Daily
Balance of Credit Purchases (including current Purchase transactions).
To get the Average Daily Balance of Purchase transactions you take
the beginning balance of Purchase transactions on my Account each
day, add any new Purchases, and subtract any payments or credits,
and unpaid INTEREST CHARGES and other FINANCE CHARGES.
This gives you the daily balance of Purchase transactions. Then, you
add up all the daily balances of Purchase transactions for the billing
cycle and divide the total by the number of days in the billing cycle.
This gives you the Average Daily Balance of Purchase transactions.
Average Daily Balance (including current Balance Transfer
transactions): You figure a portion of the INTEREST CHARGE on
my Account by applying the Balance Transfer Monthly Periodic Rate

5

to the Average Daily Balance of Balance Transfers (including current
Balance Transfers). To get the Average Daily Balance of Balance
Transfer transactions you take the beginning balance of Balance
Transfer transactions on my Account each day, add any new Balance
Transfer transactions, and subtract any payments or credits, and
unpaid INTEREST CHARGES and other FINANCE CHARGES. This
gives you the daily balance of Balance Transfer transactions. Then,
you add up all the daily balances of Balance Transfer transactions
for the billing cycle and divide the total by the number of days in the
billing cycle. This gives you the Average Daily Balance of Balance
Transfer transactions.
This determines my total periodic INTEREST CHARGES for the
billing cycle. Actual periodic INTEREST CHARGES will be shown
on my periodic statement. The combination of periodic INTEREST
CHARGES, Cash Advance Fee and Foreign Transactions Fee, will
not exceed the ANNUAL PERCENTAGE RATE permitted under
applicable law.
GRACE PERIOD: I will not pay any interest on Purchases or
Balance Transfers if I pay the entire New Balance, including any Cash
Advances, in full by the Payment Due Date shown on my monthly
statement each and every billing cycle. Generally, I will have at least a
twenty-five (25) day Grace Period from the close of each billing cycle
to pay the entire New Balance without incurring additional interest on
Purchases or Balance Transfers. The Payment Due Date disclosed on
each monthly statement provided to me is the last day of my Grace
Period for that statement’s billing cycle. If I do not pay the entire New
Balance, including any Cash Advances, in full by the Payment Due
Date in a billing cycle, I will pay interest on my Purchases and Balance
Transfers from the date they are posted to my account. I also will not
have a Grace Period on Purchases or Balance Transfers again until I
pay the entire New Balance in full by the Payment Due Date two (2)
billing cycles in a row.
Cash Advances do not have a Grace Period, as they are subject to
INTEREST CHARGES from the date the transaction posts to my
account.
CREDIT LIMIT: You will establish a Credit Limit for me. At your
discretion, you may increase or decrease my Credit Limit at any
time, and may provide separate limits for Purchases, Cash Advances
and Balance Transfers. You will notify me if you do, either by mail or
through my periodic statement. If I object to any Credit Limit increase,
I must notify you immediately in writing. Upon receipt of such notice,
my Credit Limit will be reduced to its prior limit, however, I will be
responsible to pay any amounts by which I have exceeded the
reduced limit. I agree not to allow my Account Balance to exceed
my Credit Limit. I agree to advise you of any change in my financial
condition which may affect my creditworthiness. I agree to update the
credit information that I have provided you, from time to time, on your
demand. I or my joint applicant for the Account may request a change
to the Credit Limit orally, in writing, or electronically, but any such
request must be approved by you. If my Credit Limit is increased, I am
immediately responsible for the new Credit Limit and any increase in
the Account Balance even when it differs from an amount previously
agreed to orally or in writing.
MINIMUM MONTHLY PAYMENT: Every month, I must pay at least
the Minimum monthly payment by the Payment Due Date shown on
my periodic statement. By separate agreement, I may authorize you
to automatically transfer the Minimum monthly payment from my
Credit Union share or share draft account. I may, of course, pay more
frequently, pay more, or pay the Account Balance in full, and I will
reduce my periodic FINANCE CHARGE by doing so. The Minimum
monthly payment will be either: (a) 2% of my Account Balance, or $20,
whichever is greater; or (b) my Account Balance, if it is less than $20.
In addition, I must pay any amount on my periodic statement listed
as past due and any late charge. At any time my Account Balance
exceeds my Credit Limit, I must pay the excess.
The “Payment Due Date” will be shown on my periodic statement.

6

I understand and agree that any Minimum Monthly Payment made by
me will be applied in the following order: (a) unpaid fees and charges,
if any; (b) unpaid periodic INTEREST CHARGES, TRANSACTION
FEES, and other FINANCE CHARGES due on Purchases, Cash
Advances and Balance Transfers; (c) outstanding balances of Balance
Transfers, Cash Advances and Purchases previously billed; and
(d) current Balance Transfers, Cash Advances and Purchases. Any
payment I make in excess of the Minimum Monthly Payment will be
applied to my balances subject to the highest ANNUAL PERCENTAGE
RATE first, then to balances subject to lower ANNUAL PERCENTAGE
RATES, in descending order of ANNUAL PERCENTAGE RATES until
all balances subject to an ANNUAL PERCENTAGE RATE are paid in
full. Thereafter, you will apply all payments in excess of the Minimum
Monthly Payment, if applicable, in the same order as you apply the
Minimum Monthly Payment.
LATE PAYMENT FEE: If you have not received my Minimum Monthly
Payment within ten (10) days after the “Payment Due Date” listed on
my periodic statement, I agree to pay a Late Payment Fee as set forth
in the enclosed Schedule of Fees which accompanies this Agreement
and is incorporated by reference herein as though set forth in full.
RETURNED PAYMENT FEE: If a payment that was applied to my
Account is returned to you unpaid for any reason I agree to pay a
Returned Payment Fee as set forth in the enclosed Schedule of Fees.
This fee will also apply to any payments made by automatic transfer
that cannot be posted due to insufficient funds in my regular share or
checking account.
CASH ADVANCE FEE: For each Cash Advance, a Cash Advance Fee
of either $2 or 2% of the amount of the Advance will be charged,
whichever is greater, subject to a maximum fee of $25 for each
Cash Advance transaction. Cash Advance transactions include ATM
withdrawals, online funds transfers, telephonic funds transfers, and
in person Cash Advances at a financial institution’s branch from the
Account.
BALANCE TRANSFER: I understand that I can request a Balance
Transfer transaction, which allows me to pay a portion or the entire
balance of a credit card account I maintain with another institution.
Any request I make for a Balance Transfer is subject to your approval,
based on my Credit Limit, my creditworthiness, and my good standing
as a member.
CREDIT LIFE AND/OR DISABILITY INSURANCE: The purchase of
this insurance is entirely voluntary and is not a factor in the approval
of the extension of credit. If credit life and/or disability insurance is
available to me on the Account, and I request it by completing the
Credit Insurance Application/Schedule which contains current rates
and qualifying information, the premium will be calculated monthly
by multiplying the premium rate by the outstanding balance on the
Account. You will add the premium amount to my Account Balance on
each Billing Cycle Close Date. I acknowledge receiving a copy of the
Credit Insurance Application/Schedule.
PREPAYMENT OR IRREGULAR PAYMENTS: Though I need only
pay the Minimum Monthly Payment, I understand that I have the
right to repay my Account Balance at any time without penalty. I also
understand and agree that I will only be charged periodic INTEREST
CHARGES to the date I repay my entire Account Balance. I may make
larger payments without penalty and this may reduce the total amount
of periodic INTEREST CHARGES that I will repay. If I pay more
than the Minimum Monthly Payment in any month and there is still
a balance due, I must continue to make Minimum Monthly Payments
in future months. Any partial payment of my Account Balance will not
advance my next payment due date(s). I understand and agree that
any payment that: (a) delays or (b) accelerates the repayment of my
Account Balance will: (a) increase or (b) decrease my Monthly Periodic
INTEREST CHARGE.
PAYMENTS BY AUTOMATIC TRANSFER: If I request payment by
automatic transfer, I understand and agree that no payment can or will

7

be made if there are insufficient or uncollected funds in the designated
account to make the scheduled payment. Should this event occur,
I understand and agree that I will not be released from making the
payment. Any automatic transfer I have requested will remain in effect
until I cancel it in writing or the Account Balance is paid in full. My
written notice to cancel must be received by you, at PO BOX 10188,
Van Nuys, CA 91410-0188, at least three (3) business days before the
automatic transfer is scheduled to occur. You may cancel this service
at your discretion.
DEFAULT: I will be in default if: (1) I do not pay on time or in the proper
amount(s); (2) I have made a false or misleading statement on my
application; (3) I fail to live up to any of the terms of this Agreement; (4)
my creditworthiness is impaired; or (5) I die, become insolvent or am
the subject of bankruptcy or receivership proceedings. In the event of
any action by you to enforce this Agreement, I agree to pay the costs
thereof, including reasonable attorneys’ fees, and other expenses. I
understand and agree that INTEREST CHARGES at the ANNUAL
PERCENTAGE RATE as permitted under this Agreement will continue
to accrue until I repay my entire Account Balance.
ACCELERATION AND COLLECTION COSTS: Upon my default,
I understand and agree that you have the right to temporarily or
permanently suspend any and all Account and Card privileges and/or
you may demand immediate payment of the Account Balance,
including INTEREST CHARGES, TRANSACTION FEES, and other
FINANCE CHARGES, Late Payment Fees, and your collection costs,
reasonable attorneys’ fees, and court costs (collectively “collection
related charges”), and all other fees and charges hereunder. I
understand and agree that I will be subject to INTEREST CHARGES
(at the applicable Monthly Periodic Rate), TRANSACTION FEES, and
other FINANCE CHARGES, Late Payment Fees, collection-related
charges, and all other fees and charges under the terms disclosed in
this Agreement, until I repay my entire Account Balance. In the event
of any action by you to enforce this Agreement, I agree to pay the
costs thereof, reasonable attorneys’ fees, and other expenses.
ELECTRONIC FUND TRANSFER: In the event the use of the Card,
the Account or the Account number of the Card constitutes an
Electronic Fund Transfer, the terms and conditions of my Electronic
Fund Transfer Agreement with you shall govern such transactions
to the extent the Electronic Fund Transfer Agreement expands or
amends this Agreement.
PURCHASES, ADVANCES and BALANCE TRANSFERS: I may make
Purchases, Balance Transfers and request Advances in accordance
with then current loan policies up to my Credit Limit. I understand and
agree that all purchases and other transactions requested by me or
anyone I have permitted to use the Card(s) and/or Account are subject
to your approval.
USING THE CARD: To make a Purchase or obtain an Advance, I
may present the Card or Card number to a participating VISA plan
merchant, to you or to another financial institution that accepts Classic
VISA Credit Cards and sign or authorize a sales or Cash Advance
draft. Certain purchases, Cash Advances and Balance Transfers will
require an authorization prior to completion of the transaction. In some
cases, I may be asked to provide identification. If I have received a
personal identification number (“PIN”), I may also use my Card and
PIN to obtain Cash Advances at any Automatic Teller Machine (“ATM”)
that accepts my Card or other type of electronic terminal that provides
access to the VISA system. (Not all ATMs accept Classic VISA
Credit Cards.) My PIN is confidential and should not be disclosed
to anyone. I agree not to write my PIN on my Card, I will not keep
my Card and PIN together, and I will not provide my PIN to anyone
who is not an authorized user. Advances through ATM access will be
treated as Cash Advances. Advances at authorized ATMs are limited
to a total of $700.00 per day. I may also provide my Card number
verbally, electronically, or in writing to a merchant to complete a mail,
electronic or telephone transaction. If your authorized system is not
working, I may not be able to authorize a transaction, even if I have

8

sufficient available credit. Occasionally for security reasons, you may
block usage of my Card and/or Account in certain foreign countries
or geographical areas. You will not be liable to me if any of these
events happen. My Card and/or Account may not be used directly or
indirectly for: (1) any illegal activity or transaction including, without
limitation any “racketeering activity” as defined in 18 U.S.C. § 1961;
or (2) any gambling, gaming, betting or similar activity or transaction.
Further, I may not utilize my Card and/or Account for the purchase of
any goods or services on the Internet that involve gambling, betting or
any similar activity or transaction. Such transactions include, but may
not be limited to, any quasi-cash or online gambling transaction, any
electronic commerce transaction conducted over an open network,
and any betting transaction including the purchase of lottery tickets
or casino gaming chips or off-track betting or wagering. However, in
the event that a charge or transaction described in this paragraph is
approved and processed, I will still be responsible for such charges.
FOREIGN TRANSACTIONS: Purchases, Cash Advances and credits
made in foreign currencies will be billed to my Account in U.S. dollars
(including on-line purchases made within the United States but where
the merchant is located internationally). The conversion to U.S. dollars
will be made in accordance with the VISA operating regulations for
international transactions. Such regulations provide for either a .8%
currency exchange fee for single currency transactions (transactions
made internationally without a currency conversion) or 1% currency
exchange fee for multicurrency international transactions (transactions
made internationally that require a currency conversion, which may
include on-line purchases made within the United States but where
the merchant is located internationally), which is added to the amount
of the Purchase, Cash Advance, or credit and retained by VISA.
Transactions conducted in U.S. military bases, territories, embassies,
or consulates are not considered international transactions and will
not be subject to the .8% currency exchange fee. The exchange
rate between the transaction currency and the billing currency used
for processing international transactions is a rate selected by VISA
from the range of rates available in wholesale currency markets for
the applicable central processing date, which rate may vary from the
rate VISA itself receives, or the government-mandated rate in effect
for the applicable central processing date. The conversion rate may
be different than the rate on the day of the transaction or date of
the posting of the Account. When a credit to the Account does not
fully offset a charge to the Account due to changes in the rate, I am
responsible for the differences.
RESPONSIBILITY: I agree to repay you according to the terms of
this Agreement for all Purchases, Advances, Balance Transfers,
INTEREST CHARGES, TRANSACTION FEES, and other FINANCE
CHARGES, Late Payment Fees, and all other fees and charges, if any,
arising from the use of the Card and/or Account by me or any other
person I permit to use the Account, even if that person exceeds my
permission. I cannot disclaim responsibility by notifying you, although
you will close the Account if I so request and I will return all Cards to
you and I will repay the unpaid balance to you. My obligation to pay
the Account balance continues even though an agreement, divorce
decree or other court judgment to which you are not a party may
direct me or one of the other persons responsible to pay the Account.
Any person using the Account and/or Card is jointly and severally
responsible with me for charges he or she makes, but if that person
signs the Card he or she becomes a party to this Agreement and is
also responsible for all charges on the Account, including mine. The
Cards remain your property and I must recover and surrender to you
all Cards upon your request and/or upon termination of this Account.
TRANSACTION SLIPS: My periodic statement will identify the
merchant, electronic terminal or financial institution at which
transactions were made, but sales, Cash Advances, credit or other
slips cannot be returned with the periodic statement. I will retain the
copy of such slips furnished at the time of the transaction in order to

9

verify my periodic statement. You may assess a reasonable fee for
any photocopies or slips I request.
PLAN MERCHANT DISPUTES: You are not responsible for the
refusal of any plan merchant or financial institution or electronic
terminal to honor the Account and/or Card. You are subject to claims
and defenses (other than tort claims) arising out of goods or services
I purchase with the Card only if I have made a good faith attempt
but have been unable to obtain satisfaction from the plan merchant,
and: (a) my purchase was made in response to an advertisement you
sent or participated in sending me; or (b) my purchase cost more than
$50.00 and was made from a plan merchant in my state or within 100
miles of my current mailing address. Any other dispute I must resolve
directly with the plan merchant.
RETURNS AND ADJUSTMENTS: If a merchant discloses a policy
such as “no returns,” “no refunds,” “no return or credit without
receipt,” “as is,” “store credit only” or “all sales final,” I will be bound
by that policy when I use my Card to buy goods or services from
that merchant. Merchants and others who honor the Account and/or
Card may give credit for returns or adjustments, and they will do so
by sending you a credit slip which you will post to my Account. If my
credits and payments exceed what I owe you, you will hold and apply
this credit balance against future Purchases, Advances and Balance
Transfers or if it is $1.00 or more, refund it on my written request or
automatically after six (6) months.
UNAUTHORIZED USE: If I notice the loss or theft of my Card
or a possible unauthorized use of my Card, I should write to you
immediately at: P. O. Box 10188, Van Nuys, California 91410-0188,
or call you at (877) 695-2732. I will not be liable for any unauthorized
use that occurs after I notify you. I may, however, be liable for
unauthorized use that occurs before my notice to you. In any case,
my liability will not exceed $50. My liability may be zero ($0) in cases
of VISA Credit Card fraud in accordance with current VISA U.S.A., Inc.
Operating Regulations. I agree that in the event of a lost, stolen, not
received, or counterfeited card, or fraudulent activity on my Account,
I and all parties given access to the Account will complete an affidavit
of forgery in a form approved by you, when applicable. I also agree to
assist you in determining the facts, circumstances, and other pertinent
information related to any loss, theft or possible unauthorized use
of my Card, Account number or PIN and to comply with such other
procedures as you may require in connection with your investigation.
SURRENDER OF CARD(S): The Card(s) remains your property and,
if you request, I must surrender to you all Cards you have issued on
the Account.
LOST OR STOLEN CARD(S) NOTIFICATION AND LIABILITY: I will
notify you AT ONCE by immediately calling you at (866) 604-0381
or, if I am outside the U.S., call collect at (727) 570-4881 if I believe
that the Card, Account number, PIN or any combination of the three
has been lost or stolen. Telephoning is the best way of keeping my
possible losses down. I understand that my total liability to you shall
not exceed $50.00 for any Account and/or Card transactions resulting
from the loss, theft or unauthorized use of the Account and/or Card
that occurs prior to the time I give notice to you. Such liability does not
apply when the Account and/or Card is used to make an electronic
transfer.
PAYMENTS MARKED “PAID IN FULL”: You may accept checks,
money orders, or other types of payment marked “payment in full”
or using other language to indicate full satisfaction of indebtedness,
without being bound by such language or waiving any rights under
this Agreement. Full satisfaction of indebtedness shall be accepted by
you only in written agreement, signed by an authorized representative
of the Credit Union.
JOINT ACCOUNTS: If this is a joint Account, each of us will be
individually and jointly responsible for paying all amounts owed
under this Agreement. This means that you can require any one of
us individually to repay the Account Balance. Each of us authorizes

10

the other to make Transactions individually. Any one of us may close
the Account and such closure will be effective as to all of us. We
agree that all notices regarding the Account may be sent solely to the
cardholder whose name and address appears on our billing records.
If this is a joint account, neither party can be released from his or her
obligations except upon your approval.
SIGNATURE REQUIREMENT: In order for my Card to be valid, I must
activate and sign the Card as soon as I receive it. However, my liability
does not depend on whether or not I sign my Card.
CONSUMER PURPOSES: I may use my Account only for personal,
family or household uses; I may not use the Account for business
purposes. If I do use my Account for business purposes, this
Agreement still applies and I must pay you for those Transactions.
You may close my Account if you learn that I am using it for business
purposes.
MOBILE PHONES OR OTHER DEVICES: Smart phones, tablets and
other electronic devices can store my Card (such as through a mobile
wallet). This means they can be used to make Purchases or other
Transactions. Any such Transactions are covered by this Agreement.
Apps that use my Card to make Transactions may have separate
terms of use. You are not responsible if I violate those terms, or for
any consequences resulting from any violation. When my Account is
accessible by my mobile device, it is important that I treat my mobile
device with the same care I would the Card. For example, I should
secure my mobile device against unauthorized access. Additionally,
if I give someone my phone, or other mobile device, that can be the
same as giving that person my Card.
CHANGING BENEFITS: You reserve the right to change or discontinue
any benefit, rewards program, service or feature offered in connection
with my Account, at any time and for any reason.
CONTACTING YOU: I agree that you (and/or your authorized
agents) may contact me in order to service my account or to collect
any amounts I owe at any phone number, email address or mailing
address I provide. This includes communications to mobile, cellular/
wireless, or similar devices. You may contact me by live operator,
auto-dialer, prerecorded or artificial voice, text or email. I agree to pay
any charges assessed by my plan provider for communications you
send to me, as well as communications I send to you.
CALL MONITORING: You may listen to and record telephone calls
between me and you to monitor and improve the quality of service I
receive.
SUSPICIOUS ACTIVITY: The Credit Union is committed to keeping
my financial transactions as secure as possible. You use a credit card
fraud detection system designed using neural network technology
that tracks my credit card purchase patterns. The system analyzes
authorization requests for my Card in real time and compares them
to my purchase history as well as current fraud trends. If you detect
unusual transaction patterns, you can take action to reduce the
potential for fraud, including but not limited to suspending credit
privileges. As my profile and transactions change over time, the
system updates its files. You reserve the right to identify Transactions
as unauthorized or fraudulent and subsequently to decline those
Transactions. You are not responsible for any loss or damage arising
out of any declined Transaction.
MERCHANT FEES: Some merchants, including merchants outside
the U.S., may charge me a fee to use my Card for a Purchase. The fee
may be either a percentage of the amount of my Purchase or a flat fee,
and will be added to the amount of my Purchase. Usually, a merchant
will tell me about this fee before I use my Card, but not always. You
do not control these fees and cannot prevent them.
RECURRING AUTHORIZED TRANSACTIONS: If I authorize a
merchant or any other person to charge my Account for recurring
Transactions, I must notify the merchant if: (a) I want to discontinue
these Transactions; (b) my Account is closed; (c) my Account number

11

changes; or (d) my Card expiration date changes. I am responsible for
reinstating any recurring authorized Transactions.
NOTICES: You will send any notices to my billing address, or, if I
have agreed to receive notices from you in an electronic format, you
will send notices to me in an electronic form. You consider a notice
sent as soon as you mail it. You consider an electronic notice sent
as soon as you email it, unless you receive notification that the email
was undeliverable.
DELAY IN ENFORCEMENT: You can delay enforcing any of your
rights under this Agreement without losing them.
GOVERNING LAW: I understand and agree that this Agreement is
made in California and shall be governed by the laws of the State
of California to the extent that California law is not inconsistent with
controlling federal law. I also understand and agree that California’s
choice of law rules shall not be applied if they would result in the
application of non-California law.
INTEGRATED DOCUMENT(S): Any separate sheet of paper labeled
“Addendum to the Classic VISA Credit Card Agreement and Federal
Truth in Lending Disclosure Statement” which is delivered together
with this form is an integral part of the Agreement and is incorporated
herein as if set forth in full.
MEMBERSHIP REQUIREMENT: I understand and agree that I must
be and remain a member in good standing with you to be eligible for
continuing Account and/or Card privileges including future Purchases,
Advances and Balance Transfers. I understand and agree that you
may suspend the Account and/or Card privileges during any period in
which I do not maintain my membership in good standing with you.
TERMINATION: You may terminate this Agreement upon my default.
Either you or I may terminate this Agreement for other good cause.
In no event shall any termination relieve me of my obligation to repay
sums already borrowed, FINANCE CHARGES, Late Payment Fees,
and all other fees and charges hereunder, if any. I agree to return all of
the Cards issued to me or any party designated by me.
CREDIT INFORMATION: I authorize you to investigate my credit
when opening, renewing or reviewing the Account, and I authorize
you to disclose information regarding the Account to credit bureaus
and other creditors who inquire of you about my credit standing to
the extent authorized by law. I understand that you may provide
information to credit bureaus about negative information concerning
my Account (such as my insolvency, delinquency, late payment
or default on my Account) which the credit bureaus may include in
my credit report. If I think you have given incorrect information to a
consumer reporting agency about me, I may contact you at (877)
695-2732 and you will research it. You will let me know if you agree
or disagree with me. If you agree with me, you will contact each
consumer reporting agency you reported to and request a correction.
CHANGE OF NAME, ADDRESS, EMPLOYMENT STATUS: I
understand and agree that I must report to you any change in my
name, address, employment status, or any other information that may
negatively affect my creditworthiness.
ACCURACY OF INFORMATION: The information provided in my
request for credit (Application) is accurate and I will notify you in
writing immediately if there is a change in my financial condition.
You may retain the Application. I understand that it is a violation of
Section 1014, Title 18, US Code to make false statements or over
value security for the purpose of influencing the action of any federally
insured credit union. You may gather credit and/or employment
information you deem necessary and appropriate from time to time,
in accordance with applicable laws, and you may give information
concerning your credit experience with me to others.
COPY RECEIVED: I acknowledge receipt of a copy of this Agreement
and agree to its terms. This Agreement is the contract which applies
to all transactions on the Account even though the sales, Cash
Advance, credit or other slips I sign or receive may contain different

12

terms. I understand and agree that all of those who apply for and who
sign for or use the Card or the Account agree to and accept the terms
and conditions of this Agreement.
NOTICE: See the statement below for important information regarding
my right to dispute billing errors.
ADDITIONAL TERMS APPLICABLE TO VISA CHECKS
CHECK USES: I can use the VISA Checks (“Checks” or “Check) to
purchase goods and services or to obtain cash up to the amount of
my Credit Limit, or to conduct Balance Transfers up to the amount
of my Credit Limit by using my VISA Check to pay a portion of or my
entire account balance on a credit card issued by another financial
institution. Use of the Checks is a Cash Advance or a Balance
Transfer on my VISA Account. You will charge interest beginning as
of the date the Check posts to my account. I cannot avoid paying
interest on Check transactions. Any special rules applicable to credit
card purchases described in this Agreement or any other features
pertaining to card purchases do not apply to Checks.
LIMITATIONS: You are not required to honor a Check that will cause
me to exceed my Credit Limit. You may refuse to pay a Check if at the
time the Check is presented, I am in default or you have suspended,
terminated or canceled the Account, the Check is not in the form you
have issued to me, my signature or the payee’s name or endorsement
is missing on the Check or the Check appears altered or my Check
is post-dated. Each Check must be in the form you have issued me.
Checks may be used only by the person(s) whose name(s) is/are
printed on the Check. I am responsible for all authorized uses of the
Checks. I may not use the Checks to pay any amount which I owe
you pursuant to this Agreement. Certain merchants may inform me of
their intent to convert my Check payment to an electronic ACH debit.
For mailed payments, this notification will be provided at the time I
receive a bill. For payments made in person, this notification will be
provided at the time payment is made. I understand and agree that
Checks are ineligible for conversion to an ACH debit and if presented
by a merchant to you for payment, you are required to reject and
return the entry. Using Checks for payments to merchants who have
notified me of their intent to convert my check to an ACH debit may
result in merchant returned item fees and/or late charges. I further
understand and agree that I may not attempt to authorize a one-time
advance from my Account via ACH by providing Check information
(such as the routing, account, and serial numbers) to a merchant or
other payee in person, via the Internet or by telephone for the purpose
of having such merchant or other payee electronically initiate a funds
transfer. You will not be liable for any fees I incur as a result of your
failure to honor a Check that is converted to an ACH debit.
PERIODIC STATEMENTS: My periodic statement will show me an
itemization of the Checks posted to the Account during the billing
cycle. Checks paid by you will not be returned to me with my periodic
statements.
STOP PAYMENT: Provided such request is timely, so that you have
a reasonable opportunity to act upon it under your rules, I may order
stop payment on a Check drawn on the Account, other than one that
has been guaranteed. In the event of an oral stop payment order,
the order shall be valid for only fourteen (14) days thereafter unless
confirmed in writing. A written stop payment order will remain in
effect only six (6) months unless renewed in writing. I have the burden
of establishing the fact and amount of loss resulting from payment
contrary to a binding stop payment order. You will charge a fee as set
forth in the enclosed Schedule of Fees for each Check when I place
a stop payment on my Check(s) which will be billed to the Account.
You are not required to notify me when a stop payment order expires.
If you re-credit my Account after paying a Check over a valid and
timely stop payment order, I agree to sign a statement describing the
dispute with the payee, to assign to you all of your rights against the
payee or other holders of the check and to assist you in any legal
action. I agree to indemnify and hold you harmless from all costs and

13

expenses, including attorneys’ fees, damages, or claims, related to
you honoring your stop payment request or in failing to stop payment
of an item as a result of incorrect information provided to you or the
giving of inadequate time to act upon a stop payment request.
SURRENDER OF VISA CHECKS: The Checks are your property. You
reserve the right to revoke them at any time. I agree to return them at
your request.
My Billing Rights: Keep this Document for Future Use
This notice tells me about my rights and your responsibilities
under the Fair Credit Billing Act.
What To Do If I Find a Mistake on My Statement
If I think there is an error on my statement, I must write to you at:
Los Angeles Police Federal Credit Union
P. O. Box 10188, Van Nuys, CA 91410-0188
I may also contact you via secure e-mail by visiting the LAPFCU
website, www.lapfcu.org, and clicking on “Contact” and “e-mail”.
In my letter, I must give you the following information:
• Account information: My name and Account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If I think there is an error on my bill, I must
describe what I believe is wrong and why I believe it is a mistake.
I must contact you:
• Within 60 days after the error appeared on my statement.
• At least 3 business days before an automatic payment is scheduled,
if I want to stop payment on the amount I think is wrong.
I must notify you of any potential errors in writing or electronically.
I may call you, but if I do you are not required to investigate any
potential errors and I may have to pay the amount in question.
What Will Happen After You Receive My Letter
When you receive my letter, you must do two things:
1. Within 30 days of receiving my letter, you must tell me that you
received my letter. You will also tell me if you have already corrected
the error.
2. Within 90 days of receiving my letter, you must either correct the
error or explain to me why you believe the bill is correct.
While you investigate whether or not there has been an error:
• You cannot try to collect the amount in question, or report me as
delinquent on that amount.
• The charge in question may remain on your statement, and you
may continue to charge me interest on that amount.
• While I do not have to pay the amount in question, I am responsible
for the remainder of my balance.
• You can apply any unpaid amount against my credit limit.
After you finish your investigation, one of two things will happen:
• If you made a mistake: I will not have to pay the amount in question
or any interest or other fees related to that amount.
• If you do not believe there was a mistake: I will have to pay the
amount in question, along with applicable interest and fees. You
will send me a statement of the amount I owe and the date the
payment is due. You may then report me as delinquent if I do not
pay the amount you think I owe.
If I receive your explanation but still believe my bill is wrong, I must
write to you within 10 days telling you that I still refuse to pay. If I do
so, you cannot report me as delinquent without also reporting that I
am questioning my bill. You must tell me the name of anyone to whom
you reported me as delinquent, and you must let those organizations
know when the matter has been settled between us.
If you do not follow all of the rules above, I do not have to pay the first
$50 of the amount I question even if my bill is correct.

14

My Rights If I Am Dissatisfied With My Credit Card Purchases
If I am dissatisfied with the goods or services that I have purchased
with my credit card, and I have tried in good faith to correct the
problem with the merchant, I may have the right not to pay the
remaining amount due on the purchase. To use this right, all of the
following must be true:
1. The purchase must have been made in my home state or within 100
miles of my current mailing address, and the purchase price must
have been more than $50. (Note: Neither of these are necessary if
my purchase was based on an advertisement you mailed to me, of
if you own the company that sold me the goods or services.)
2. I must have used my credit card for the purchase. Purchases made
with Cash Advances from an ATM or with a check that accesses
my credit card account do not qualify.
3. I must not have fully paid for the purchase.
If all of the criteria above are met and I am still dissatisfied with
the purchase, I must contact you in writing or electronically at: Los
Angeles Police Federal Credit Union P. O. Box 10188, Van Nuys, CA
91410-0188; or
I may contact you via secure e-mail by visiting the LAPFCU website,
www.lapfcu.org, and clicking on “Contact” and “e-mail”.
While you investigate, the same rules apply to the disputed amount as
discussed above. After you finish your investigation, you will tell me
your decision. At that point, if you think I owe an amount and I do not
pay, you may report me as delinquent.

FORM L-563 (02/2021)

15

I004549

